                    September 30, 1999

                    JOHN R. WARGO
                    VICE PRESIDENT, CUSTOMER RELATIONS

                    SUBJECT: Review of Initiatives to Improve the National
                             Accounts Management Program
                             (Report Number RG-MA-99-008)

                    This is our report on the review of the National Accounts
                    Management Program. Consistent with our efforts to
                    provide proactive feedback to United States Postal Service
                    (USPS) management, we performed a review of the USPS
                    initiatives to improve the national accounts program. The
                    following sections provide information on our review and
                    present our observations and suggestions for improvement.

Results in Brief	   Based on our review of national accounts program
                    initiatives, we believe that overall USPS is taking actions
                    which should improve the national accounts program.
                    However, opportunities exist for improving the national
                    accounts initiatives. Specifically, national accounts
                    management personnel were not fully utilized; the resolution
                    of mail acceptance and delivery problems needed
                    improvement; the business agreements initiative provided
                    little or no benefits to either the customer or USPS; and
                    performance indicators for national accounts managers
                    could be enhanced. We also found that national accounts
                    managers were spending excessive amounts of time
                    entering data into the account management system.

                    This report provides seven suggestions for improvement to
                    strengthen the national accounts program. Management
                    agreed with the suggestions presented in this report.
                    Management’s comments are included in their entirety in
                    Appendix B.
Review of Initiatives to Improve the                                                               RG-MA-99-008
 National Accounts Management Program


Background                       USPS National Accounts managers are responsible for the
                                 management of national accounts.1 The mission of these
                                 account managers is to leverage business relationships with
                                 managed accounts for the retention and development of
                                 postal business through higher levels of customer
                                 satisfaction as measured by the Ease of Use2 indicators. In
                                 addition, revenue retention and revenue growth from these
                                 accounts are also indicators of success. Account managers
                                 provide a link between field account managers, managed
                                 accounts, and the organizations that provide the service and
                                 mailing solutions to the marketplace.

                                 In the field, the account managers’ role is to achieve their
                                 customer satisfaction and revenue goals for managed
                                 accounts. As of May 22, 1999 there were 252 national
                                 accounts. Postal revenues for these accounts from
                                 September 12, 1998, through May 22, 1999, exceeded $9
                                 billion, which represents a gain of $234 million over the
                                 same period last year.

Objective, Scope, and            The objective of our review was to evaluate the draft
Methodology                      proposals on USPS initiatives to improve the management
                                 of the national accounts (see Appendix A). To accomplish
                                 our objectives, we interviewed USPS Headquarters
                                 personnel, four Area Office Marketing and Customer
                                 Relations Managers, eight National Accounts Managers,
                                 and seven national customers. We also reviewed the nine
                                 Postal Service initiatives.

                                 We conducted our review between March and
                                 September 1999, in accordance with the President’s
                                 Council on Integrity and Efficiency, Quality Standards for
                                 Inspections. We discussed our conclusions and
                                 observations with appropriate management officials and
                                 included their comments, where appropriate.




1
  National accounts generally exceed $10 million in annual postal revenue, have significant business growth
prospects, and have complex mailings and national visibility. These are revenue producing accounts, which use bulk
mailings to support corporation operations.
2
  Ease of Use is a customer satisfaction survey, which measures the amount and complexity of paperwork, courtesy
of the employees, understandability of rules and regulations and customer satisfaction with products and services.



                                                        2
                                             Restricted Information
Review of Initiatives to Improve the                                             RG-MA-99-008
 National Accounts Management Program




Observations

National Accounts          As a result of our review, we determined that overall the
Initiatives                USPS was taking steps that should improve the national
                           accounts program. However, opportunities still exist for
                           improving national accounts initiatives. We found that
                           national accounts management personnel were not fully
                           utilized; the resolution of mail acceptance and delivery
                           problems needed improvement; the business agreements
                           initiative provided little or no benefits to either the customer
                           or USPS; and performance indicators for national accounts
                           managers needed enhancement.

Accounts Assignment        The draft account assignment initiative was developed to
Initiative                 address the way national accounts managers were
                           assigned to the various national accounts. The objective of
                           the initiative was to match the resources to the workload to
                           ensure that national accounts managers were properly
                           compensated, national accounts received appropriate sales
                           focus, and accounts were assigned in an equitable manner.

                           The draft account assignment initiative provided for an
                           evaluation by the area customer relations manager for each
                           national account to determine the appropriate workload
                           values assigned to each national accounts manager. This
                           assessment included the following elements: Revenue,
                           Opportunity, Growth, Sites, Product, and Travel. As of
                           May 22, 1999, there were 252 National Accounts, with a
                           total of 127 national accounts managers. We found that 20
                           of the 127 (16 percent) national accounts managers did not
                           have any accounts assigned to them. This occurred
                           because Customer Relations officials had not assessed the
                           national accounts managers’ workloads in order to equitably
                           distribute customers’ accounts. The underutilization of
                           national accounts managers may be inhibiting expansion of
                           new national accounts.

                           Seven representatives for USPS customers stated that their
                           relationship with USPS had been greatly enhanced since
                           national account managers were assigned to them.
                           Customers considered national account managers an
                           integral partner of their business.




                                                   3
                                        Restricted Information
Review of Initiatives to Improve the                                           RG-MA-99-008
 National Accounts Management Program


                           National account managers advised us that they were
                           concerned about problems with the inequity in the number
                           and assignment of accounts and lack of standards for the
                           assignment of site locations.

                           We believe USPS could enhance the account assignment
                           initiative by considering the following items when assigning
                           accounts to national account managers:

                             •	 The number of accounts directly assigned to the
                                national account manager (including any other site
                                locations assigned);

                             •	 Complexity of the national account relationships with
                                USPS, (i.e. is the company in a single business or is it
                                a diverse conglomerate);

                             •	 The customers expectations of USPS as a partner, (i.e.
                                amount of time customers expect their national account
                                manager to be available to them); and

                             •	 Utilization of the Integrated Sales and Service
                                Quadrant theory so as to assure that any one national
                                account manager is not overloaded with accounts
                                which fall into any one quadrant, (i.e. growth or
                                maintain).

Account Management         The draft Account Management Team initiative proposed
Team Initiative            the formation of Account Management Teams, Area and
                           District Multi-Site Strategic Teams, and National Account
                           Support Teams. The overall objective of these teams would
                           be to provide integrated support for all national accounts in
                           terms of sales and service. In addition to account teams,
                           the Business Service Network, located at Headquarters,
                           Area Offices, and all District Postal Business Centers, was
                           supposed to be a proactive infrastructure to provide
                           solutions to customers’ service-related needs.

                           We found that USPS personnel did not readily resolve
                           customer mail delivery and acceptance problems. National
                           account managers did not have the authority to resolve
                           issues. Further, customers viewed the Business Service
                           Network as being slow in responding to service issues. As
                           a result, customers’ expectations were not met and their




                                                   4
                                        Restricted Information
Review of Initiatives to Improve the                                           RG-MA-99-008
 National Accounts Management Program


                           view of USPS ability to resolve problems timely and
                           effectively was negatively impacted.

                           Customers informed us that they did not always know who
                           to contact and who had authority to resolve mail delivery
                           and acceptance problems in a timely manner. Customers
                           expected that their delivery and acceptance problems would
                           be handled in an expedited manner, especially when time-
                           critical material was involved (retail mailings). In addition,
                           customers would like a single point of contact who would
                           have the authority to resolve all delivery and acceptance
                           problems in a timely manner.

                           Also, customers had varying opinions as to the
                           effectiveness of the Business Service Network. Customers
                           advised us that they had more faith in the local area
                           Business Service Network than the Headquarters Business
                           Service Network. One customer assigned to the
                           Headquarters Business Service Network advised us that
                           personnel turnovers, scripted responses, lack of timely
                           action, if any, and a lack of knowledge of the customers
                           business and mailing requirements affected their trust in the
                           system. Even customers with faith in the system bypassed
                           the Business Service Network and went directly to their
                           national account manager for certain types of problems,
                           because they knew that their national account manager
                           would do everything they could to try and resolve the
                           problem.

                           One approach being tested to improve customer mail
                           service acceptance problems is the National Domicile
                           Program. This pilot program provided a single contact for
                           customers to call to resolve rate and classification issues
                           with mailings. On July 14, 1999, this program was
                           expanded because of the success of the program and
                           positive feedback from the mailers, National Domiciles
                           (Classification Support Specialist), and other postal
                           employees. This program assigns a National Domicile to
                           each customer for a variety of reasons, including working
                           with the customer’s national office, in advance to ensure
                           smooth transitions in rate and reclassification cases.

                           We believe that this program offers a service to customers,
                           which is not being currently addressed but is desired by the
                           customers.



                                                   5
                                        Restricted Information
Review of Initiatives to Improve the                                         RG-MA-99-008
 National Accounts Management Program



Business Agreement         The proposed business agreement initiative would create a
Initiative                 new agreement between USPS and each national account
                           to communicate ongoing efforts and to establish future
                           account strategies/initiatives. However, a customer would
                           not be required to sign the agreement nor would they be
                           bound to the terms.

                           New business agreements would provide little or no benefit
                           to either USPS or the customer. Because neither USPS nor
                           the customer is required to sign the agreements, the benefit
                           of such agreements is not clear.

                           We concluded that the need to create a proposed new
                           agreement, to enhance the current account planning
                           process, may not be necessary. The responsibility for
                           gaining customer agreement is a part of the national
                           account manager’s job. During their normal dealings with
                           the customer they should be working with their customer to
                           gain agreement on any proposed action. The time spent
                           working with this proposed agreement could be used more
                           effectively working with the customer to develop new sales
                           opportunities.

Performance Indicator      The draft performance indicators for the national account
Initiative                 program included actual revenue by product to the account
                           plan and the results of the Ease of Use survey. However,
                           two different consultants in 1998, reported problems with
                           the tracking of customer revenues. Using a comparison of
                           actual revenue to planned revenue, as an indicator of
                           performance, could provide erroneous results and that
                           USPS efforts to improve the revenue accountability need to
                           continue.

                           We believe that customer satisfaction with USPS and their
                           national account manager should be an equal priority to
                           revenue accountability as a measure of performance.
                           However, the current Ease of Use survey results are not an
                           adequate approach to customer satisfaction, because they
                           are very broad, and do not provide detail as to which
                           customers made the comments. USPS should evaluate the
                           use of a targeted customer satisfaction survey as a better
                           measure of performance.




                                                   6
                                        Restricted Information
Review of Initiatives to Improve the                                            RG-MA-99-008
 National Accounts Management Program




Suggestion                 We offer the following suggestion:

                           The Vice President, Customer Relations, should:

                           1) Analyze the workload assessment and evaluate the
                              current national account manager assignments with
                              emphasis on the following items;

                               a) Number of site locations assigned (other than their
                                  assigned national accounts),
                               b) Complexity of the national account relations with
                                  USPS (is it a single business or a diverse
                                  conglomerate),
                               c) Customer’s expectations of USPS and their national
                                  account manager as a business partner, and
                               d) Utilization of the Integrated Sales and Service
                                  Quadrant theory so as to assure that any one national
                                  account manager is not overloaded with accounts
                                  which fall into any one quadrant (i.e. growth or
                                  maintenance).

Management’s               Customer Relations Management agreed with the
Comments                   suggestion. Management noted that the way accounts were
                           assigned to national account managers needs to be
                           improved. They believe that the National Accounts program
                           initiatives provide clear policies on the criteria to be used in
                           assigning national account managers to various national
                           accounts. The criteria includes the items noted in our
                           suggestion and are effective immediately.

                           2) Utilize or reassign the 20 national account managers
                              who are not assigned to accounts based on new account
                              assignment criteria.

Management’s 	             Management agreed with the suggestion. They noted that
Comments 	                 the Area Marketing Managers have agreed to have
                           accounts assigned to all national account managers by the
                           end of the first quarter of FY 2000.

                           3) Consider expanding the National Domicile program to
                              allow for the mail acceptance problems of all national
                              accounts to be handled through this program.




                                                   7
                                        Restricted Information
Review of Initiatives to Improve the                                         RG-MA-99-008
 National Accounts Management Program


Management’s               Management agreed with the suggestion. They noted that
Comments                   the Manager, Marketing Technology and Channel
                           Management, directs the National Domicile Program, not
                           Customer Relations. They agreed that the program needed
                           to be closely integrated with the Business Service Network
                           and that they have taken steps to discuss with the program
                           manager how the integration can be accomplished.
                           Customer Relations will share our suggestions with the
                           program manager and they will work jointly with them to
                           determine how or if the program will be expanded.

                           4) Consider expanding the district and area Business
                              Service Networks to provide better and more timely
                              resolution of delivery and acceptance related problems.

Management’s               Management agreed with the suggestion stating that the
Comments                   Business Service Network performance should be at the
                           same high-level of excellence at Headquarters, Area and
                           District Sites. They were surprised with our findings
                           concerning the Headquarters Business Service Network
                           and plan to investigate the cause of the problems noted to
                           assure that appropriate corrective actions are taken to
                           improve the Business Service Network.

                           5) Review the Business Agreement proposal to determine if
                              it is practical and necessary.

Management’s 	             Management agreed with the suggestion. They noted that
Comments 	                 the original business agreement proposal is obsolete. They
                           are considering alternatives and asking the national account
                           managers to provide additional feedback.

                           6) Consider the use of a targeted customer satisfaction
                              survey to evaluate the performance of the national
                              account managers.

Management’s 	             Management agreed that our suggestion concerning the
Comments 	                 use of a targeted customer satisfaction survey had merit
                           and plan to search for a practical method to implement a
                           revised targeted survey.

Evaluation of              Management’s comments meet the intent of the 

Management’s               suggestions. 

Comments 




                                                   8
                                        Restricted Information
Review of Initiatives to Improve the                                                          RG-MA-99-008
 National Accounts Management Program




Account Management             National account mangers were spending excessive
System                         amounts of time entering data into the account management
                               system.3 We found that this problem developed over time
                               because the software applications, for the account
                               management system, were created individually using
                               different computer language platforms without considering
                               the integration with other programs that were in use. We
                               believe that the system needs to be modified to make it
                               more user friendly by linking the various applications.
                               Reducing the time spent entering data into the account
                               management system could free up more time for the
                               national account managers to perform their customer
                               relation duties and develop new revenue opportunities.

                               Although we found that USPS was currently working on a
                               modification of the system, the prospect of a fully integrated
                               system was still some time away and its completion was
                               subject to future funding.

Suggestion                     We offer the following suggestion:

                               The Vice President, Customer Relations, should:

                               7) Increase the priority of the integration/linking between
                                  computer applications of the Account Management
                                  System.

Management’s                   Customer Relations Management “strongly agreed” with our
Comments                       suggestion. They noted that they would continue to work
                               closely with the Marketing Technology and Channel
                               Management group who has the responsibility for
                               integration of the Account Management System. Currently
                               the development of the integrated application has been
                               delayed because of the freeze in new program development
                               related to Y2K. Marketing technology plans to have the
                               system fully developed and implemented by March 2000.

Evaluation of                  Management’s comments meet the intent of the suggestion. 

Management’s

Comments 



3
 Account management system consists of four parts: the Account Revenue Plan, Account Net, Account
Management Process, and the Business Service Network.



                                                      9
                                           Restricted Information
Review of Initiatives to Improve the                                       RG-MA-99-008
 National Accounts Management Program


                           We appreciated the cooperation and courtesies provided by
                           your staff during our review. If you have any questions,
                           please contact me at (703) 248-2300.



                           Sylvia L. Owens
                           Assistant Inspector General
                            for Revenue/Cost Containment

                           cc: 	 Clarence E. Lewis, Jr.
                                 Allen Kane
                                 Kenneth Cowell
                                 Ann Wright
                                 Alan B. Kiel
                                 John Gunnels




                                                  10
                                        Restricted Information
Review of Initiatives to Improve the                                                                                                                                                                                RG-MA-99-008
 National Accounts Management Program



                                                                                                                NATIONAL ACCOUNTS INITIATIVES
                                                                                                                                                                                                Version Reviewed
                                                                                                                                                                                                By OIG

                                                                                            Initiative:            Lead:            Resource:        Major deliverables:       Briefing date:   Inititative Dated
                                                                                            Account                Mid West;        Arthur Porwick   1. Criteria               June 23          6/29/99
                                                                                            Assignments            NY Metro                          2. Process
     Objective: Redesign National Accounts program to meet changing customer expectations




                                                                                            Initiative:            Lead:             Resource:       Major deliverables:       Briefing date:   E-Mailed
                                                                                            Account Plans          Mid Atlantic/     Pat McGee       1. Barriers & Solutions   July 15          Document
                                                                                                                   Mid West                          2. Training module                         Received 7/1/99


                                                                                            Initiative:            Lead:            Resource:        Major deliverables:       Briefing         Mailed Document
                                                                                            Account Teams          Allegheny;       Ann Wright       1. Team make-up           date:            with Cover Letter
                                                                                                                   Western                           2. SOP/process            June 23          Dated 7/12/99
                                                                                                                                                     3. Training module

                                                                                            Initiative:            Lead:            Resource:        Major deliverables:       Briefing         E-Mailed
                                                                                            Business               Southeast        Arthur Porwick   1. Format                 date:            Document
                                                                                            Agreements                                               2. Training module        June 23          Received 7/6/99


                                                                                            Initiative:            Lead:            Resource:        Major deliverables:       Briefing date: E-Mailed
                                                                                            Business Partners      Great Lakes      Jay Freitas      1. Definition             July 15        Document
                                                                                                                                                     2. Strategies/SOP
                                                                                                                                                                                              Received 7/13/99
                                                                                                                                                     3. Training module

                                                                                            Initiative:            Lead:            Resource:        Major deliverables:       Briefing date: E-Mailed
                                                                                            Indicators             Pacific          Ken Cowell       Leading indicators        June 23        Document
                                                                                                                                                                                              Received 7/7/99

                                                                                            Initiative:            Lead:            Resource:        Major deliverables:       Briefing date:   Initiative Dated
                                                                                            National Accounts      Southwest        Ken Cowell       1. Criteria               June 23          7/20/99
                                                                                            Criteria                                                 2. Process




                                                                                            Initiative:            Lead:            Resource:        Major deliverables:        Briefing date: Faxed Document
                                                                                            Role of Senior         Northeast        Arthur Porwick   1. Criteria                July 15        Received 6/30/99
                                                                                            Mgmt.                                                    2. Roles &
                                                                                                                                                     Responsibilities



                                                                                            Initiative:            Lead:            Resource:        Major deliverables:       Briefing date: Mailed Document
                                                                                            Selection, Training,   Capital Metro;   Peter Zeranski   1. Processes              July 15        Received 8/4/99
                                                                                            Rewards &              Western                           2. Criteria
                                                                                            Recognition, Job                                         3. Documentation
                                                                                            Descriptions




                                                                                                                                                      11                                                              Appendix A
                                                                                                                                            Restricted Information
Review of Initiatives to Improve the                             RG-MA-99-008
 National Accounts Management Program




                                                  12               Appendix B
                                        Restricted Information
Review of Initiatives to Improve the                             RG-MA-99-008
 National Accounts Management Program




                                                  13               Appendix B
                                        Restricted Information
Review of Initiatives to Improve the                             RG-MA-99-008
 National Accounts Management Program




Major Contributors to
This Report




                                                  14
                                        Restricted Information
